                 Forms and Publications for Tax Year 2003
                Properly Explain Specific Tax Law Changes
                      Affecting Individual Taxpayers

                                    March 2004

                       Reference Number: 2004-40-069




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       March 9, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Forms and Publications for Tax Year 2003
                                     Properly Explain Specific Tax Law Changes Affecting Individual
                                     Taxpayers (Audit # 200440015)


       This report presents the results of our review of the update of Tax Year (TY) 2003 tax
       forms, instructions, and publications for new tax legislation. The overall objective of this
       review was to determine if the Internal Revenue Service (IRS) identified new tax
       legislation affecting individual taxpayers and ensured all relevant forms, instructions,
       and publications were updated for TY 2003.
       Each year, the IRS faces the challenge of incorporating new tax legislation into many of
       its publications and processes. Implementing new legislation becomes more
       challenging when there are numerous provisions with effective dates that extend over
       several years. An important element within these required changes is the revision to
       the various tax forms, instructions, and publications (i.e., tax products).
       There are 31 provisions in the Jobs and Growth Tax Relief Reconciliation Act of 2003,1
       the Trade Act of 2002,2 and the Taxpayer Relief Act of 19973 that will affect individual
       taxpayers during TY 2003. We reviewed 10 of the provisions we believe could have the
       most significant impact on taxpayers. Overall, the IRS did a good job of clearly and
       accurately updating the tax forms and publications relating to the provisions we
       reviewed. The impact of the legislation was properly identified, changes to the forms,
       instructions, and publications were adequately controlled, and the revised products
       were clearly and accurately updated to reflect the changes to the tax laws. We did,


       1
         Pub. L. No. 108-27, 117 Stat. 752.
       2
         Pub. L. No. 107-210, 116 Stat. 38.
       3
         Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C., 26 U.S.C.,
       29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
                                            2


however, observe a few situations that could lead to some confusion or errors on tax
returns. While we do not believe these situations are significant enough to warrant
corrective actions at this time, we do suggest the IRS monitor the situations and take
actions if needed.
Management’s Response: IRS management reviewed the draft report and provided
their concurrence with its contents via email. Since there were no recommendations
requiring a formal response, the IRS agreed the report should be issued with no formal
written response.
Copies of this report are also being sent to the IRS managers affected by the report.
Please contact me at (202) 622-6510 if you have questions or Michael R. Phillips,
Assistant Inspector General for Audit (Wage and Investment Income Programs), at
(202) 927-0597.
                    Forms and Publications for Tax Year 2003 Properly Explain
                     Specific Tax Law Changes Affecting Individual Taxpayers




                                             Table of Contents


Background ............................................................................................... Page 1
Tax Year 2003 Provisions Were Adequately Controlled and Related
Tax Products Were Accurately Updated.................................................... Page 2
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 6
Appendix II – Major Contributors to This Report........................................ Page 8
Appendix III – Report Distribution List ....................................................... Page 9
Appendix IV – Significant Tax Year 2003 Tax Law Changes
for Individual Taxpayers ............................................................................ Page 10
Appendix V – List of Tax Products Reviewed ............................................ Page 13
             Forms and Publications for Tax Year 2003 Properly Explain
              Specific Tax Law Changes Affecting Individual Taxpayers

                               Each year the Internal Revenue Service (IRS) faces the
Background
                               challenge of incorporating new tax legislation into many of
                               its publications and processes. Implementing new
                               legislative changes becomes more challenging when there
                               are numerous provisions with effective dates that extend
                               over several years. An example of this is the Economic
                               Growth and Tax Relief Reconciliation Act of 2001,1 which
                               contains 85 major provisions that will require 441 changes
                               to the Internal Revenue Code effective over a 10-year
                               period.
                               Controlling the overall implementation of new tax
                               legislation is the responsibility of the IRS Office of Tax
                               Administration Coordination. This Office coordinates with
                               IRS functional areas to identify and control the changes that
                               are necessary to implement new legislation. These changes
                               are controlled and monitored on the Legislative
                               Implementation Tracking System (LITS). An important
                               element within these required changes is the revision to the
                               various tax forms, instructions, and publications (i.e., tax
                               products).
                               The IRS function responsible for tax products is the Tax
                               Forms and Publications Division. The Tax Forms and
                               Publications Division uses a program called the Tax Forms
                               and Publications Oracle Program Tracking System to
                               manage the tax product development process. This Program
                               tracks milestone dates, computes taxpayer burden, and
                               tracks legislation implementation plans for more than
                               800 tax products.
                               Tax Law Specialists in the Tax Forms and Publication
                               Division are assigned specific tax products and are
                               responsible for interpreting the tax law, determining the
                               needed changes, and making the changes the Congress
                               intended in the legislation.
                               This review was performed in the Tax Forms and
                               Publications Division and the Office of Tax Administration
                               Coordination in the National Headquarters in
                               Washington, D.C. The audit was conducted from
                               October 2003 through January 2004 in accordance with


                               1
                                   Pub. L. No. 107-16, 115 Stat. 38 (2001).
                                                                                      Page 1
               Forms and Publications for Tax Year 2003 Properly Explain
                Specific Tax Law Changes Affecting Individual Taxpayers

                                 Government Auditing Standards. For the purpose of this
                                 review, only those tax products the IRS had made available
                                 in draft form or had finalized prior to January 16, 2004,
                                 were reviewed.
                                 Detailed information on our audit objective, scope, and
                                 methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 Overall, the IRS did a good job of clearly and accurately
Tax Year 2003 Provisions Were
                                 updating the tax forms and publications relating to the
Adequately Controlled and
                                 provisions we reviewed. The impact of the legislation was
Related Tax Products Were
                                 properly identified, changes to the forms, instructions, and
Accurately Updated
                                 publications were adequately controlled, and the revised
                                 products were clearly and accurately updated to reflect the
                                 changes to the tax laws.
                                 For Tax Year (TY) 2003, the Jobs and Growth Tax Relief
                                 Reconciliation Act of 2003,2 the Trade Act of 2002,3 and the
                                 Taxpayer Relief Act of 19974 contained 31 provisions that
                                 will affect taxpayers. We reviewed 10 of the provisions we
                                 believe could have the most significant impact on taxpayers.
                                 These provisions include changes to the rules for dividends
                                 and capital gains, the child tax credit, the health care tax
                                 credit, the lifetime learning credit, and the general tax rates.
                                 A brief summary of the provisions we reviewed for
                                 TY 2003 can be found in Appendix IV.
                                 The IRS identified 594 action items on the LITS that were
                                 required to effectively update the related tax products for the
                                 10 provisions we reviewed. Of the 594 action items, we
                                 reviewed 137 that dealt with updates for dividends and
                                 capital gains, the child tax credit, the health care tax credit,
                                 the lifetime learning credit, and the general tax rates. We
                                 reviewed these action items to determine if the changes to
                                 the related tax products were clear and accurate.
                                 The 137 action items required changes to 47 tax products
                                 (16 forms, 13 instructions, and 18 publications). A list of
                                 the 47 tax products we reviewed can be found in

                                 2
                                   Pub. L. No. 108-27, 117 Stat. 752.
                                 3
                                   Pub. L. No. 107-210, 116 Stat. 38.
                                 4
                                   Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered
                                 sections of 5 U.S.C., 19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C.,
                                 42 U.S.C., and 46 U.S.C. app.).
                                                                                                 Page 2
Forms and Publications for Tax Year 2003 Properly Explain
 Specific Tax Law Changes Affecting Individual Taxpayers

                  Appendix V. Examples of the tax products we reviewed
                  included the 2003:
                  •   United States (U.S.) Individual Income Tax Returns
                      (Form 1040, 1040A, and 1040EZ) and related
                      instructions.
                  •   Capital Gains and Losses (Schedule D) and related
                      instructions.
                  •   Your Federal Income Tax (Publication 17).
                  •   Highlights of 2003 Tax Changes (Publication 553).
                  Revisions to each of the tax products affected by the
                  137 action items must be consistent with the statute enacted
                  by the Congress. Comparison of each tax product with the
                  related legislation determined that all of the tax products we
                  reviewed were properly revised. There were also changes
                  made to the tax products that are not specifically listed on
                  the LITS or the Tax Forms and Publications Oracle Program
                  Tracking System. Our review showed these changes were
                  also accurate.
                  While the tax products related to the provisions we reviewed
                  were adequately controlled and clearly and accurately
                  updated, we did make several observations that could affect
                  how accurately taxpayers complete their TY 2003 tax
                  returns.
                      •   The 2003 tax law changes for the child tax credit are
                          very complex. The IRS did a good job of explaining
                          the changes and making information available to
                          taxpayers to help them avoid problems similar to
                          those encountered with the rate reduction credit in
                          the 2002 Filing Season.5 However, the complexity
                          of this area may still cause unavoidable tax return
                          errors for the IRS to resolve for the 2004 Filing
                          Season. As part of the tax law change, taxpayers
                          were issued an advance payment of the increase in
                          the child tax credit for TY 2003. Taxpayers must
                          deduct this advance payment when calculating the


                  5
                    The period between January and mid-April when most individual
                  income tax returns are filed.
                                                                               Page 3
Forms and Publications for Tax Year 2003 Properly Explain
 Specific Tax Law Changes Affecting Individual Taxpayers

                          amount of the credit on their 2003 child tax credit
                          worksheets.
                      •   The IRS had not created action items on either of its
                          legislative tracking systems for TY 2003 changes in
                          the lifetime learning credit. Additional Child Tax
                          Credit (Form 8812) and Volunteer Assistor’s Guide,
                          Volunteer Income Tax Assistance (VITA) Student
                          Text (Publication 678)6 were also not included on
                          either database as tax products that needed to be
                          revised for the provisions that we reviewed.
                          Although the tax products related to the lifetime
                          learning credit and the two tax products mentioned
                          above were accurately updated for TY 2003
                          changes, not controlling all significant action items
                          on established tracking systems increases the risk
                          that future necessary updates will not be made.
                      •   The Form 1040, Form 1040A, and Education Credits
                          (Form 8863) instructions are those to which
                          taxpayers are most likely to turn for information on
                          the lifetime learning credit. The sections within
                          these instructions intended to highlight significant
                          changes for TY 2003 may encourage taxpayers to
                          make errors on their returns because the instructions
                          focus on a maximum credit amount of $2,000
                          instead of the increase in the allowable expenses
                          from $5,000 to $10,000.7 However, if taxpayers use
                          Form 8863 to calculate the credit, they will calculate
                          the correct amount.
                          We discussed this issue with the IRS and were
                          advised that the highlight of the lifetime learning
                          credit changes made in the “What’s New for 2003?”
                          sections of the instructions we reviewed was
                          intended to be short because of space limitations.
                          The IRS also believes that focusing on the maximum
                          credit amount rather than the maximum expenses
                          allowed will not cause taxpayers to erroneously

                  6
                    Publication 678 is authored by the Stakeholder Partnerships,
                  Education, and Communication Office.
                  7
                    The allowable expenses for computing the lifetime learning credit
                  doubled for TY 2003, resulting in an increase in the maximum credit to
                  $2,000.
                                                                                 Page 4
Forms and Publications for Tax Year 2003 Properly Explain
 Specific Tax Law Changes Affecting Individual Taxpayers

                         claim the full $2,000 credit on their returns because
                         the instructions state to attach a Form 8863 to the
                         returns. We agree space in the tax products is
                         limited and the IRS must choose the best message to
                         provide in that space. We also agree using the
                         Form 8863 will result in the proper credit. However,
                         the focus on the maximum credit could encourage
                         taxpayers to claim the maximum lifetime learning
                         credit of $2,000 instead of completing Form 8863.
                         The IRS pointed out that, if the Form 8863 is not
                         attached to the return, the return will be flagged as
                         an error and the taxpayer will not be allowed to
                         claim the credit. We suggest the IRS monitor tax
                         return errors during the filing season to determine if
                         this issue resulted in increased taxpayer errors for
                         the lifetime learning credit.
                  While we do not believe these situations are significant
                  enough to warrant corrective actions at this time, we do
                  suggest the IRS monitor the situations and take actions if
                  needed.




                                                                         Page 5
                    Forms and Publications for Tax Year 2003 Properly Explain
                     Specific Tax Law Changes Affecting Individual Taxpayers

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine if the Internal Revenue Service (IRS)
identified new tax legislation affecting individual taxpayers and ensured all relevant forms,
instructions, and publications were updated for Tax Year (TY) 2003.
The audit focused on dividends and capital gains, the child tax credit, the lifetime learning credit,
the health care tax credit, and the tax rate provisions in the Jobs and Growth Tax Relief
Reconciliation Act of 2003,1 the Trade Act of 2002,2 and the Taxpayer Relief Act of 1997.3 To
accomplish our objective, we:
I.       Identified the tax law changes that had a significant impact on returns filed by individual
         taxpayers during TY 2003 by relying on work performed by our planning team. The
         planning team had prepared a Tax Law Matrix that identified the new tax law provisions
         and provided a comparison of the number of individual taxpayers and tax dollars affected
         by the tax law changes.
II.      Determined whether the IRS identified and controlled the significant tax law changes
         affecting individual taxpayers.
         A. Validated the process the IRS uses to identify and track new and expiring tax
            legislation provisions.
         B. Reviewed the Office of Tax Administration Coordination Legislative Implementation
            Tracking System (LITS) to determine if significant legislation identified in
            Subobjective I had been controlled. When legislation was not controlled on the LITS,
            we reviewed reports from the Tax Forms and Publications Oracle Program Tracking
            System and contacted various Tax Law Specialists in the Tax Forms and Publications
            Division.
         C. Reviewed Tax Forms and Publications Division action plans and web resources to
            determine if the tax products were being updated as necessary.




1
  Pub. L. No. 108-27, 117 Stat. 752.
2
  Pub. L. No. 107-210, 116 Stat. 38.
3
  Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C., 26 U.S.C.,
29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
                                                                                                            Page 6
                    Forms and Publications for Tax Year 2003 Properly Explain
                     Specific Tax Law Changes Affecting Individual Taxpayers

III.     Determined if the planned changes to forms, instructions, and publications were clear and
         accurate.
         A. Reviewed the final copies4 of 47 electronic tax products to determine if the tax law
            changes relating to dividends and capital gains, the child tax credit, the lifetime
            learning credit, the health care tax credit, and the updated tax rates were clear and
            understandable.
         B. Reviewed the printed tax products, when available.
         C. Compared the forms and instructions for the above provisions to the statute to
            determine if they are consistent with the law.




4
  Draft versions of the forms and instructions were reviewed when final versions were not available. Tax forms,
instructions, and publications not available either in final or draft format as of January 16, 2004, were not reviewed.



                                                                                                              Page 7
                Forms and Publications for Tax Year 2003 Properly Explain
                 Specific Tax Law Changes Affecting Individual Taxpayers

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Deann L. Baiza, Audit Manager
Linda L. Bryant, Senior Auditor
Sharla J. Robinson, Senior Auditor
Steven Vandigriff, Senior Auditor
Sandra L. Hinton, Auditor




                                                                                         Page 8
               Forms and Publications for Tax Year 2003 Properly Explain
                Specific Tax Law Changes Affecting Individual Taxpayers

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Tax Administration Coordination SE:OTAC
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Strategy and Finance SE:W:S
Director, Stakeholder Partnerships, Education, and Communication SE:W:CAR:SPEC
Director, Product and Partnership Development SE:W:CAR:SPEC:PPD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                 Page 9
                      Forms and Publications for Tax Year 2003 Properly Explain
                       Specific Tax Law Changes Affecting Individual Taxpayers

                                                                                           Appendix IV


                             Significant Tax Year 2003 Tax Law Changes
                                       for Individual Taxpayers

Jobs and Growth Tax Relief Reconciliation Act of 20031
       •   Title III, Reductions in Taxes on Dividends and Capital Gains
           Sec. 301. Reduction in capital gains rates for individuals; repeal of 5-year holding period
           requirement.
                The 10 and 20 percent rates on the adjusted net capital gain are reduced to 5 and
                15 percent, respectively, effective in taxable years ending on or after May 6, 2003,
                and beginning before January 1, 2009.
                For taxable years that include May 6, 2003, the lower rates apply to amounts
                properly taken into account for the portion of the year on or after that date. This
                generally has the effect of applying the lower rates to capital assets sold or
                exchanged (and installment payments received) on or after May 6, 2003.
           Sec. 302. Dividends of individuals taxed at capital gains rates.
                  Dividends received by an individual shareholder from domestic corporations are
                  taxed at the rates for net capital gain (5 or 15 percent per the above reduction in the
                  capital gains rate), effective for taxable years beginning after December 31, 2002.
       •   Title I, Acceleration of Previously Enacted Tax Reductions
           Sec. 101. Increase in child tax credit.
                  For Tax Years (TY) 2003 and 2004, the amount of the child tax credit is increased
                  to $1,000. An advance payment of the increase of up to $400 per child for TY 2003
                  will be paid starting in July 2003.
           Sec. 102. Acceleration of 15 percent individual income tax rate bracket expansion for
           married taxpayers filing joint returns.
                  For TYs 2003 and 2004, the 15 percent income tax bracket for joint filers is
                  increased to twice the amount of the 15 percent bracket for the single filer.




1
    Pub. L. No. 108-27, 117 Stat. 752.
                                                                                                  Page 10
                      Forms and Publications for Tax Year 2003 Properly Explain
                       Specific Tax Law Changes Affecting Individual Taxpayers

             Sec. 104. Acceleration of 10 percent individual income tax rate bracket expansion.
                    For TYs 2003 and 2004, the taxable income levels are raised to $7,000 for single
                    and $14,000 for joint filers. Taxable income levels revert to the current tax
                    brackets after TY 2004.
             Sec. 105. Acceleration of reduction in individual income tax rates.
                    The tax rate reductions scheduled to phase in for TYs 2004 and 2006 will be
                    accelerated to apply to TY 2003. The regular income tax rates in excess of
                    15 percent are 25 percent, 28 percent, 33 percent, and 35 percent for TYs 2003
                    and thereafter. Most individual taxpayers will be affected by the acceleration of
                    these reduced tax rates.
Trade Act of 20022
       •   Title I, Trade Adjustment Assistance Program
           Sec. 124. Demonstration project for alternative trade adjustment assistance for older
           workers.
                    This section requires the establishment of an alternative trade adjustment
                    assistance program for older workers. Workers participating in the program are
                    eligible to receive a credit for health insurance costs for a period of up to 2 years.
       •   Title II, Credit for Health Insurance Costs of Eligible Individuals
           Sec. 201. Credit for health insurance costs of individuals receiving a trade readjustment
           allowance or a benefit from the Pension Benefit Guaranty Corporation.
                    This section amends Internal Revenue Code (I.R.C.) § 6429 to cover the Trade
                    Adjustment Assistance Health Insurance Credit. It allows certain taxpayers to
                    claim a refundable tax credit of 65 percent of their health insurance premiums.
                    This is limited to a select number of taxpayers and became effective for premiums
                    paid in December 2002. The legislation also provides for taxpayers to receive the
                    credit in advance.
           Sec. 202. Advance payment of credit for health insurance costs of eligible individuals.
                    This section amends I.R.C. § 7527 to cover Advance Payment of Trade
                    Adjustment Assistance Health Insurance Credit.




2
    Pub. L. No. 107-210, 116 Stat. 38.



                                                                                                   Page 11
                    Forms and Publications for Tax Year 2003 Properly Explain
                     Specific Tax Law Changes Affecting Individual Taxpayers

Taxpayer Relief Act of 19973
    •   Title II, Education Incentives
        Sec. 201. Hope and lifetime learning credits.
                 We looked only at the lifetime learning credit. Beginning in TY 2003, the amount
                 of qualified tuition and related expenses increases from $5,000 to $10,000. The
                 credit equals 20 percent of these qualified expenses, with the maximum credit
                 being $2,000.




3
 Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C., 26 U.S.C.,
29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
                                                                                                          Page 12
           Forms and Publications for Tax Year 2003 Properly Explain
            Specific Tax Law Changes Affecting Individual Taxpayers

                                                                              Appendix V


                          List of Tax Products Reviewed

                                   Tax Forms
      Tax Product                                       Title
    (* Indicates draft)
1. Form 1040              United States (U.S.) Individual Income Tax Return
2. Form 1040A             U.S. Individual Income Tax Return
3. Form 1040 ES           Estimated Tax for Individuals
4. Form 1040 ES-NR        U.S. Estimated Tax for Nonresident Alien Individuals
5. Form 1040              Schedule D (Form 1040) Capital Gains and Losses
   Schedule D
6. Form 1099-B            Proceeds From Broker and Barter Exchange Transactions
7. Form 1099-DIV          Dividends and Distributions
8. Form 1099-G            Certain Government Payments
9. Form 1099-H            Health Coverage Tax Credit (HCTC) Advance Payments
10. Form 4797             Sale of Business Property
11. Form 4952             Investment Interest Expense Deduction
12. Form 6251             Alternative Minimum Tax - Individuals
13. Form 6781*            Gains and Losses From Section 1256 Contracts and Straddles
14. Form 8812             Additional Child Tax Credit
15. Form 8863             Education Credits
16. Form 8885             Health Coverage Tax Credit




                                                                                  Page 13
           Forms and Publications for Tax Year 2003 Properly Explain
            Specific Tax Law Changes Affecting Individual Taxpayers



                               Tax Instructions
      Tax Product                                     Title
    (* Indicates draft)
1. Form 1040              Instructions for Form 1040 U.S. Individual Income Tax
                          Return
2. Form 1040A             Instructions for Form 1040A U.S. Individual Income Tax
                          Return
3. Form 1040EZ            Instructions for Form 1040EZ U.S. Individual Income Tax
                          Return
4. Form 1040              Instructions for Schedule D Capital Gains and Losses
   Schedule D
5. Form 1040NR            Instructions for Form 1040NR U.S. Nonresident Alien
                          Income Tax Return
6. Form 1040NR-EZ         Instructions for Form 1040NR-EZ U.S. Income Tax Return
                          for Certain Nonresident Aliens With No Dependents
7. Form 1040-SS           Instructions for Form 1040-SS U.S. Self-Employment Tax
                          Return (Including the Additional Child Tax Credit for Bona
                          Fide Residents of Puerto Rico)
8. Form 1099-DIV          Instructions for Form 1099-DIV
9. Form 1116              Instructions for Form 1116 Foreign Tax Credit (Individual,
                          Estate, or Trust)
10. Form 4684             Instructions for Form 4684 Casualties and Thefts
11. Form 6251             Instructions for Form 6251 Alternative Minimum Tax -
                          Individuals
12. Form 8812             Instructions for Form 8812 Additional Child Tax Credit
13. Form 8863             Instructions for Form 8863 Education Credits




                                                                                   Page 14
            Forms and Publications for Tax Year 2003 Properly Explain
             Specific Tax Law Changes Affecting Individual Taxpayers



                                Tax Publications
       Tax Product                                      Title
     (* Indicates draft)
 1. Publication 3          Armed Forces’ Tax Guide
 2. Publication 17         Your Federal Income Tax (for Individuals)
 3. Publication 225        Farmer’s Tax Guide
 4. Publication 502        Medical and Dental Expenses (Including the Health Coverage
                           Tax Credit)
 5. Publication 505*       Tax Withholding and Estimated Tax
 6. Publication 514*       Foreign Tax Credit for Individuals
 7. Publication 519*       U. S. Tax Guide for Aliens
 8. Publication 544        Sales and Other Disposition of Assets
 9. Publication 553*       Highlights of 2003 Tax Changes
10. Publication 554        Older Americans’ Tax Guide
11. Publication 559        Survivors, Executors, and Administrators
12. Publication 564        Mutual Fund Distributions
13. Publication 678        Volunteer Assistor’s Guide, Volunteer Income Tax Assistance
                           (VITA) Student Text
14. Publication 678M       Military Volunteer Income Tax Assistance Student Text
15. Publication 919        How Do I Adjust My Withholding?
16. Publication 970        Tax Benefits for Higher Education
17. Publication 972        Child Tax Credit
18. Publication 1346       Electronic Return File Specifications and Record Layouts for
                           Individual Income Tax Returns




                                                                                    Page 15
